                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 113030018                                                                   Page 1 of 1



         This case was opened on a company1 from a proactive review of SBA 8(a) companies that were
         awarded NSF contracts. Questions arose concerning whether the company met 8(a) program
         requirements, whether the funds were properly spent, and whether an allowable amount was
         subcontracted out to another business. 2 The company provided information showing they met the
         program requirements, the funds had been properly spent, and the allowable amount
         subcontracted out to the other business was not exceeded. There are no unresolved issues.

         Accordingly, this case is closed.




NSF OIG Form 2 (11102)
